No. _________

In The
Supreme Court of the United States
JOE D. BRYAN,
V.

TEXAS,

Petitioner,

Respondent.

On Petition for Writ of Certiorari to the
Court of Criminal Appeals
of Texas
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ
of Certiorari filed in this case complies with the typeface requirement of Supreme
Court Rule 33.1(b). The Petition was prepared in Century Schoolbook typeface, using
12-point font size for the text and 10-point font size for the footnotes. It is 25 pages
long as allowed by Supreme Court Rule 33.2(b), excluding the parts that are
exempted by Supreme Court Rule 33.1(d).

Respectfully submitted,

Allison Clayton
Counsel of Record
The Law Office of Allison Clayton
on behalf of The Innocence Project of Texas
P.O. Box 64752
Lubbock, Texas 79464
P: (806) 773–6889
F: (888) 688–4515
Allison@AllisonClaytonLaw.com

